NOT FOR PUBLICATION

/21
FILED

UNITED STATES COURT OF APPEALS

APR 23 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 20-35474

RAUL MENDEZ,
Plaintiff-Appellant,

D.C. No. 1:20-cv-00061-BLW

v.
MEMORANDUM*
CITY OF BOISE, a municipal corporation;
et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Idaho
B. Lynn Winmill, District Judge, Presiding
Submitted April 20, 2021**
Before: THOMAS, Chief Judge, TASHIMA and SILVERMAN, Circuit Judges.
Raul Mendez appeals pro se from the district court's judgment dismissing
his action alleging federal and state law claims arising out of a dispute regarding
sewer fees. We have jurisdiction under 28 U.S.C. § 1291. We review de novo a
district court's dismissal under 28 U.S.C. § 1915(e)(2)(B)(ii). Watison v. Carter,

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

668 F.3d 1108, 1112 (9th Cir. 2012). We affirm.
The district court properly dismissed Mendez's procedural due process claim
because Mendez failectto_allege_facts sufficient to show that he was denied any
process to which he was entitled prior to being charged sewer fees. See Hotel &
Motel Ass 'n of Oakland v. City of Oakland, 344 F.3d 959, 968-70 (9th Cir. 2003)
(explaining that "laws of general applicability affecting a broad geographic area"
ordinarily do not implicate individual procedural due process concerns).
The district court properly dismissed Mendez's Fair Debt Collection
Practices Act ("FDCPA") claim because, even assuming the sewer fees qualified
as a "debt" under the FDCPA, Mendez failed to allege facts sufficient to show that
any defendant was a "debt collector" within the meaning of the FDCPA. See 15
U.S.C. § 1692a(6) (defining "debt collector" under the FDCPA as "any person . . .
who regularly collects or attempts to collect . . . debts owed . . . another"); Hebbe
v. Pliler, 627 F.3d 338, 341-42 (9th Cir. 2010) (although pro se pleadings are
liberally construed, plaintiff must allege facts sufficient to state a plausible claim).
The district court did not abuse its discretion in denying Mendez leave to
amend because amendment would have been futile. See Cervantes v. Countrywide
Home Loans, Inc., 656 F.3d 1034, 1041 (9th Cir. 2011) (setting forth standard of
review and stating that leave to amend may be denied where amendment would be
futile).

2

20-35474

We reject as meritless Mendez's contention that the district court failed to
liberally construe his complaint.
We do not consider arguments and allegations raised for the first time on
appeal. See Padgett v.‘Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).
AFFIRMED.

3

20-35474

Case: 20-35474, 08/02/2021, ID: 12189686, DktEntry: 8, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

AUG 2 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

(RAUL MENDEZ,
Plaintiff-Appellant,
v.
CITY OF BOISE, a municipal corporation;
et al.,

No. 20-35474
D.C. No. 1:20-cv-00061-BLW
District of Idaho,
Boise
ORDER

Defendants-Appellees.
Before: THOMAS, Chief Judge, TASHIMA and SILVERMAN, Circuit Judges.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Mendez's petition for rehearing en banc (Docket Entry No. 7) is denied.
No further filings will be entertained in this closed case.

